                                                               U.S. Department of Justice
                                                               United States Attorney
                                                               Eastern      District     of    Pennsylvania
                                                               504 West Hamilton Street, Suite 3701
                                                              Allentown, Pennsylvania 18101
                                                              (610) 776-0186

FOR IMMEDIATE RELEASE                                         July 30, 2003

TRUCK DRIVERS CHARGED WITH LYING TO DEPARTMENT OF
TRANSPORTATION ABOUT REQUIRED REST TIME – TRUCKERS
              ALLEGEDLY DROVE TIRED

According To One Indictment, One Defendant Caused Six-Vehicle Fatal Crash
                            On I-476 In 2001
        PHILADELPHIA – United States Attorney Patrick L. Meehan and Charles Lee, Assistant
Inspector General for Investigations, U.S. Dept. of Transportation OIG, today announced that a
federal grand jury in Philadelphia has returned nine separate indictments against eight truck
drivers, one trucking company dispatcher and one trucking company.1 Each indictment charges
defendants with making false statements about their driving hours to the United States
Department of Transportation and the Federal Motor Carrier Safety Administration, in violation
of Title 18, United States Code, Section 1001. (Attached is a list identifying all the defendants.)

        The indictments against all the defendant truck drivers allege that they falsified their
Driver’s Daily Logbook, on a continuous and systematic basis, and exceeded the maximum
lawful number of daily driving hours and on-duty hours without taking the required hours off-
duty. As a result, the indictments allege, each defendant drove a truck in a tired and fatigued
condition.

        “It’s always a little unsettling when you’re driving down the highway and a tractor trailer
is bearing down on you,” said Meehan. “A number of thoughts might race through your mind –
change lanes, speed up, slow down. But you should not have to wonder if the driver of the truck
is about to fall asleep. What we’re dealing with here is a life and death safety issue.”

        Defendant Stanley N. Waddy, Jr., drives for Tapscott Trucking in Thornburg, VA. In
addition to 10 counts of making false statements to the United States Department of
Transportation, the indictment alleges that Waddy caused a 6-vehicle fatal crash after having
recently used marijuana, and charges him with one count of using a controlled substance while on
duty and performing a safety sensitive function. According to the indictment, this charge arises
from a December 12, 2001 crash in which the defendant, driving a tractor trailer northbound on
the Blue Route (Route 476), in Ridley Township, Delaware County, Pennsylvania, drove into the
rear of another vehicle causing a 6-vehicle collision. One of the vehicles hit in the collision burst
into flames, killing its driver Bennie Lee Moses and his wife, Shirley Moses.

        The other seven indicted drivers were employees of David Kistler and Grandson, Inc.,
and/or its successor company, Ontelaunee Transport Services, Inc. David Kistler and Grandson,
Inc., were convicted here in 2001 on charges of defrauding and conspiring to defraud the United
States by making false statements to the Department of Transportation. The indictment against

       1
           An Indictment is an accusation. A defendant is presumed innocent unless and until proven guilty.
Ontelaunee Transport Services, Inc. and its dispatcher, Richard Christman, alleges that they
allowed, encouraged and caused the Ontelaunee truck drivers to violate the federal highway
safety laws by driving more than the maximum lawful number of daily driving hours and on-
duty hours without taking the required hours off-duty.

        Commercial truck drivers, like these defendants, are required under federal
law to maintain truthful and accurate driver daily logbooks for inspection by the United
States Department of Transportation. Federal highway safety regulations require truck
drivers to maintain truthful drivers’ daily logbooks for several reasons, including so that
federal inspectors can accurately determine whether a commercial truck driver has exceeded
the maximum allowable number of daily driving hours without having the required eight
consecutive hours of rest or off-duty time. The maximum allowable lawful number of daily
driving and on-duty hours were implemented to ensure that truck drivers operate their multi-
ton trucks in a safe, unimpaired manner and that the drivers are not tired or fatigued while
driving.

         Among the current federal regulations for commercial motor vehicle (CMV)
truck drivers promoting the safe operation of their vehicles are the following: a) limiting
the maximum daily allowable driving hours which truck drivers may drive. These
regulations include two general rules for the maximum allowable number of daily driving
hours. The “10 hour rule” provides that once a CMV truck driver accumulates 10 hours
of driving time, that driver may not drive again until he or she has at least eight
consecutive hours off-duty. The “15 hour rule” provides that when a CMV truck driver
has been "on-duty" for 15 hours, whether driving or not, that driver may not drive again
until he or she has had eight consecutive hours off-duty; b) requiring a truck driver to
maintain truthful and accurate driver daily logs which reflect the driver’s duty status,
locations, and the daily number of hours spent driving, on-duty but not driving, in
sleeper berth and off-duty; and c) requiring a truck driver to comply with all laws,
ordinances and regulations in the jurisdiction in which the truck is being operated.

        To ensure that motor carriers and truck drivers comply with these limitations on
their maximum driving hours, truck drivers are required by federal regulation to record
all daily activities, including driving time, on a form called "Record of Duty Status." This
form is commonly referred to as a "Driver's Daily Log." Federal regulations mandate
that truck drivers certify the truthfulness and accuracy of the driver's daily logs by
signing their name to each log.

        The U.S. Attorney's Office has prosecuted seven prior trucker cases in recent years,
several of which have involved truck crashes involving fatalities and/or serious bodily
injuries in which truck drivers have falsified their driver daily logbooks and drove in a tired
and fatigued condition.

       “We will continue to prosecute these cases. We have an obligation to enforce safety
laws that are designed to protect the public," Meehan said.
       If convicted, each defendant faces a possible maximum sentence per count of five years
imprisonment, three years supervised release and a $250,000 fine. The case was investigated by
the United States Department of Transportation, Office of Inspector General, together with the
Federal Motor Carrier Safety Administration.

                 Copies of news memos and related documents can also be found at:
                               HTTP://WWW.USAO-EDPA.COM

              The cases have been assigned to Assistant United States Attorney Seth Weber.
 UNITED STATES ATTORNEY'S OFFICE                 Contact:       RICHARD MANIERI
 EASTERN DISTRICT, PENNSYLVANIA                                          Public Affairs
 Suite 1250, 615 Chestnut Street                                                215-861-
                                                                8525
 Philadelphia, PA 19106
       IDENTIFICATION OF DEFENDANTS

       1.     James Bean - truck driver for Dave Kistler and Grandson, Inc. and Ontelaunee
              Transport Services, Inc.
                      10 counts of making false statements to the Department of Transportation,
              in violation of 18 U.S.C. § 1001
                      Time period - 7/99 - 6/02
                      DOB-11/2/67
              Address - 2838 Route 309, Orefield, Lehigh County, PA 18069


              2.      Sean Eck - truck driver for Dave Kistler and Grandson, Inc.
              10 counts of making false statements to the Department of Transportation, in
              violation of 18 U.S.C. § 1001
              Time period - 7/99 - 11/99
                      DOB- 5/1/69
              Address - 94 Deysher Rd., Fleetwood, Berks County, PA 19522

              3.      Augustine Henry - truck driver for Dave Kistler and Grandson, Inc. and
              Ontelaunee Transport Services, Inc.
              10 counts of making false statements to the Department of Transportation, in
              violation of 18 U.S.C. § 1001
                      Time period - 7/99 - 7/02
                      DOB- 7/15/71
              Address - 1242 State St., P.O. Box 163, Mertztown, PA

              4.      Robert McClafferty - truck driver for Dave Kistler and Grandson, Inc. and
              Ontelaunee Transport Services, Inc.
              10 counts of making false statements to the Department of Transportation, in
              violation of 18 U.S.C. § 1001
                      Time period - 7/99 - 3/02
                      DOB- 12/3/71
                      Address - 303 Evergreen Ave., Pittsburgh, PA 15209
       5.      Ronald Reider - truck driver for Dave Kistler and Grandson, Inc.
       and Ontelaunee Transport Services, Inc.
       10 counts of making false statements to the Department of Transportation,
       in violation of 18 U.S.C. § 1001
               Time period - 7/99 - 8/02
               DOB- 8/31/52
               Address - 454 S. Cottonwood Rd., Northampton, PA 18067

      6.      David Thompson - truck driver for Dave Kistler and Grandson,
      Inc.
      2 counts of making false statements to the Department of Transportation,
      in violation of 18 U.S.C. § 1001
              Time period - 7/99 - 11/99
DOB - 1/28/49
              Address - 40496 State Hwy 27, Titusville, PA 16354

       7.      Barry Werley - truck driver for Dave Kistler and Grandson, Inc.
       10 counts of making false statements to the Department of Transportation,
       in violation of 18 U.S.C. § 1001
               Time period - 8/99 - 3/2000
               DOB - 1/28/61
               Address - 140 W. Greenwich St., Reading, PA 19601

       8.    Ontelaunee Transport Services, Inc. -
       20 counts of aiding and abetting the making of false statements to the
       Department of Transportation, in violation of 18 U.S.C. §§ 1001 and 2
       Time period - 12/01 - 6/02
       Company was located at 9128 King’s Highway, Kempton, Berks County,
             Pennsylvania.

9.     Richard Christman - dispatcher for Ontelaunee Transport Services, Inc.
       20 counts of aiding and abetting the making of false statements to the
       Department of Transportation, in violation of 18 U.S.C. § 1001 and 2
              Time period - 12/01 - 6/02
              DOB - 10/9/56
              Address - 4534 Route 100, New Tripoli, PA 18066

       10.    Stanley N. Waddy, Jr. - employee of Tapscott Trucking in
       Thornburg, Virginia.
              10 counts of making of false statements to the Department of
       Transportation, in violation of 18 U.S.C. § 1001
              1 count of using a controlled substance on duty while performing a
       safety
               sensitive function, in violation of 49 U.S.C. § 521(b)(6)(A) and 49
       C.F.R.
              § 382.213
      DOB 1/3/67
Address: 907 Bonita Way, Richmond, VA
